<html>
<title> - NOMINATION OF ROBERT L. NABORS II</title>
<body><pre>[Senate Hearing 111-440]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-440
 
                   NOMINATION OF ROBERT L. NABORS II

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

  NOMINATION OF ROBERT L. NABORS II TO BE DEPUTY DIRECTOR, OFFICE OF 
                         MANAGEMENT AND BUDGET

                            JANUARY 14, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
49-486                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK PRYOR, Arkansas                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                   Lawrence B. Novey, Senior Counsel
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
Prepared statements:
    Senator Lieberman............................................    11
    Senator Collins..............................................    11

                               WITNESSES
                      Wednesday, January 14, 2009

Hon. David R. Obey, a Representative in Congress from the State 
  of Wisconsin...................................................     1
Robert L. Nabors II to be Deputy Director, Office of Management 
  and Budget:
    Testimony....................................................     3
    Prepared statement...........................................    13
    Biographical and financial information.......................    14
    Responses to pre-hearing questions...........................    21
    Letter from the Office of Government Ethics with an 
      attachment.................................................    52


                   NOMINATION OF ROBERT L. NABORS II

                              ----------                              


                      WEDNESDAY, JANUARY 14, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:57 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The Committee is reconvened for the 
hearing on the nomination of Robert Nabors to be the Deputy 
Director of the Office of Management and Budget (OMB).
    Perhaps in deference to Mr. Obey's schedule, before either 
Senator Collins or I speak, Mr. Obey, we would be happy to hear 
from you. First, we thank you for coming over to introduce Mr. 
Nabors, and we would be happy to hear your opening statement at 
this time.

 TESTIMONY OF HON. DAVID R. OBEY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Obey. Thank you very much, Mr. Chairman and Senator 
Collins.
    Yesterday, when I appeared before another committee to 
introduce Mr. Nabors, I noted that I had one concern with the 
incoming Obama Administration, their great concentration of 
power in the hands of Chicago White Sox fans, with both the 
incoming President and the Chief of Staff and Mr. Nabors. I was 
willing to overlook that, but as a Green Bay Packers fan, I 
discovered last night that all three of them are also Chicago 
Bears fans. That is almost too much to bear.
    Chairman Lieberman. Enough is enough. [Laughter.]
    Mr. Obey. But having said that, I am sure that you know 
what Mr. Nabors' background is. He went to Notre Dame for his 
undergraduate degree, got his master's degree at the University 
of North Carolina, served at OMB as a Program Examiner. He then 
served as Senior Advisor to the Director and then became 
Assistant Director for Administration and the Executive 
Secretary of OMB. He joined the staff of the House 
Appropriations Committee, serving in various capacities for 
several years. He then served 2 years as Minority Staff 
Director and for the last 2 years has served as Chief of Staff 
for the House Appropriations Committee.
    I have never met a person who works harder. It is really 
with mixed feelings that I appear before you because he has 
been my right arm for the last 4 years and he is a tremendous 
asset to this institution of the Congress of the United States. 
We are losing a very valuable asset, but the Executive Branch 
is gaining one, and I think that is the country's gain, as 
well.
    He is a person of solidity and wisdom. I said yesterday 
that, as we know, mathematics is the universal language, but 
budgets, even though they are a compilation of numbers, also 
represent what can happen to human beings behind those numbers. 
Mathematics is a universal language, but so is pain and so is 
the human desire for opportunity, and budgets certainly can 
provide both. I think Mr. Nabors understands that and 
recognizes the human dimension of everything we do in the 
budgeting area.
    I would also simply note that he brings a special quality 
because I think he understands both branches of government and 
I think he will help bring a degree of respect between the 
Executive and Legislative Branches, which has all too often 
been absent in recent years. I think while he will provide 
tough-minded service to the Executive Branch and to the 
Congress, he will also bring a deep and profound understanding 
and respect for the opposite institution, and that never hurts 
around here.
    With that, I appreciate your hearing me, and I will leave 
and go back to my roll calls and leave you to your business.
    Chairman Lieberman. Thanks, Mr. Obey. That was a very, 
obviously, heartfelt and thoughtful introduction and 
endorsement. We appreciate it very much. Mr. Nabors, I don't 
think you could have had a better start. Thank you. Safe 
travels.
    Mr. Obey. Thank you.
    Chairman Lieberman. I officially welcome you, Mr. Nabors, 
to the Committee. Since I gave an opening statement on the 
issues facing OMB in Mr. Orszag's hearing, I am going to simply 
enter that into the record, as well, for this hearing.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Lieberman appears in the 
Appendix on page 11.
---------------------------------------------------------------------------
    The discussion we have just had with Mr. Orszag was, I 
think, both illuminating and sobering. For any Administration, 
directing OMB is one of the most important jobs, even though in 
some sense it is little known outside of Washington, but being 
second in command, being Deputy Director, is no less demanding, 
and particularly so at this unique hour, this really 
unprecedented time in our Nation's economic history.
    As Mr. Obey illustrated, you have an impressive background. 
I think your previous experience at OMB will be very useful as 
will, of course, the service you have given the Legislative 
Branch of our government.
    So I thank you for being here, and I am eager to hear your 
views. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    I, too, outlined in my opening statement from the previous 
hearing the general issues, as well as welcomed our witness 
today.\2\
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Collins appears in the 
Appendix on page 11.
---------------------------------------------------------------------------
    I will note that both of the nominees today have had the 
wisdom to bring adorable children with them, thus making it 
very difficult for the Members of this Committee to ask the 
kind of hard-edged questions for which we are known. 
[Laughter.]
    So I think that, too, indicates a certain skill and savvy 
on the part of the witnesses today. But welcome.
    I had a very good meeting with Mr. Nabors in my office 
yesterday, and I look forward to exploring a few issues with 
him during the questions.
    Chairman Lieberman. Thanks, Senator Collins.
    I will say for the record that Mr. Nabors has filed 
responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
had his financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record, with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee's offices.
    Mr. Nabors, our Committee rules also require that all 
witnesses at nominations give their testimony under oath, so I 
would ask you to please stand and raise your right hand.
    Do you swear that the testimony you will give before the 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Nabors. I do.
    Chairman Lieberman. Thank you. Please be seated. As Senator 
Collins has indicated, I understand your family is here with 
you, and I ask if you would like to introduce them at this 
time.
    Mr. Nabors. I would be very happy to. My wife, Theresa, my 
son, Jude, and my daughter, Georgia.
    Chairman Lieberman. Welcome to all of you, and thank you 
for supporting your husband and dad in serving our country, as 
he is about to do in a very significant way.
    I would ask you now to proceed with any opening statement 
that you have.

  TESTIMONY OF ROBERT L. NABORS II\1\ TO BE DEPUTY DIRECTOR, 
                OFFICE OF MANAGEMENT AND BUDGET

    Mr. Nabors. In the interest of time, I will try to keep my 
statement brief and try to follow the Spratt model by reading 
the first and last paragraph of my prepared remarks. 
[Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nabors appears in the Appendix on 
page 13.
---------------------------------------------------------------------------
    Mr. Chairman, Ranking Member Collins, I am honored by the 
opportunity to come before you as President-Elect Obama's 
nominee for the Deputy Director of the Office of Management and 
Budget.
    I would like to take an opportunity to thank Mr. Obey for 
introducing me to the Committee. As anyone who knows Mr. Obey 
knows about him, he has a deep-seated respect for Congress. 
This is a gift that he has imparted in me and a gift that I 
plan on taking with me to my new position, if confirmed.
    Mr. Chairman, these are extraordinary times. If confirmed, 
I am committed to working with the Director, the Deputy 
Director for Management, and other members of the 
Administration to find the best ways to reform our budget, 
eliminate waste, fraud, and abuse, put in place oversight 
mechanisms to ensure that we wisely allocate Federal resources, 
and manage those resources as effectively as possible.
    With that, I thank you for the opportunity to testify 
before you and am prepared to answer any questions you might 
have.
    Chairman Lieberman. Thank you very much.
    Let me start with those standard questions we ask of all 
nominees. First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Nabors. No.
    Chairman Lieberman. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Nabors. No.
    Chairman Lieberman. Do you agree without reservation to 
respond to any reasonable summons to appear to testify before 
any duly-constituted committee of Congress if you are 
confirmed?
    Mr. Nabors. Yes.
    Chairman Lieberman. Thanks. Let me proceed.
    Let me ask you first how you see the role of the Deputy at 
OMB, and as part of that, whether you and Mr. Orszag have 
discussed how you might divide responsibilities.
    Mr. Nabors. We have had those types of discussions. I think 
part of the way I view the role of the Deputy Director is 
influenced by my previous tenure at OMB.
    I think especially to the outside world, much has been made 
about the distinction between the management side of OMB and 
the budgetary side of OMB. From my experience, that distinction 
between the two parts of OMB are very much exaggerated, and I 
will just give you one example.
    In my previous tenure at OMB, I served as the Census Bureau 
Examiner in what is traditionally thought of as the budget side 
of OMB. But I was as likely to interact on a daily basis with 
my colleagues from the Office of Information and Regulatory 
Affairs, the Office of Federal Financial Management, or the 
Office of Federal Procurement Policy as I was to interact with 
other budget people. It is because the issues that I was 
dealing with, with the decennial census in particular, were so 
complex that it actually took a team of experts to help think 
through some of the problems.
    So I come to the position with a predisposition that there 
is no distinction between budget and management at OMB. It is 
one institution. I see that my primary role as the Deputy 
Director of OMB is to make sure that all of these different 
perspectives within the institution--the management components, 
the statutory office components, the budgetary issues--are 
brought together so that when a recommendation is made to the 
Director, all of the different facets of a particular problem 
are brought to the forefront.
    Chairman Lieberman. Very good. There was some talk with Mr. 
Orszag of the line-item veto or enhanced rescission. We are 
going to be looking at reform of current budget rules and 
procedures in this Committee and in Congress. I wonder if you 
have any suggestions yourself about how we might reform our 
budget rules and procedures here in Congress based on your 
experience, again, in both branches, to advance the cause of 
fiscal responsibility.
    Mr. Nabors. I think that there are a couple of things that 
the Committee could look at and that OMB could be a helpful 
partner in. I think that the first thing that I would point to 
is transparency. I think that the budget and financial systems 
of the Federal Government are among the most complex and obtuse 
systems that exist anywhere, and I think anything that we can 
do to bring increased transparency both to the budget itself 
and to the budget process is a positive step in the right 
direction.
    I think the second thing that can be done is--any efforts 
to better integrate the performance aspects of program 
management with the budget processing components would be, once 
again, a very positive step. I think right now, and once again, 
based on my previous experience at OMB, too much of the program 
analysis and the budget development are separated.
    The example that I would use is previously at OMB, we had a 
very long and detailed process that really began in October and 
extended all the way through February to put the budget 
together. After that, the examiners sort of catch 40 hours of 
sleep and go back to work starting on something called the 
spring reviews, and those spring reviews were opportunities to 
focus on the management components. That tended to be book-
ended in between the budget creation process and the 
congressional budget process and appropriations process. So 
often times, that spring management review got short shrift.
    I think that one of the things that needs to occur is that 
throughout the budget process, from budget formulation all the 
way through budget execution, there needs to be a strong focus 
on the management component so that, as much as possible, these 
pieces are not disrupted, and I think the same thing can be 
said of the OMB and the Administration's working relationships 
with the Congress.
    Too often, our conversations with regard to budgetary 
issues are limited to either the Appropriations Committee or 
the Ways and Means Committee or the Senate Finance Committee. I 
think more attention needs to be paid to incorporating the 
findings of oversight committees into the deliberations that go 
into crafting the annual congressional budget and the 
appropriations bills.
    Chairman Lieberman. Very thoughtful. I appreciate it.
    Let me go to the stimulus package and ask for a reaction to 
an idea. The President-Elect has set down three standards for 
the stimulus package. Let me see if I can recall them. One was 
that they create jobs; two, that they are able to be 
implemented fairly rapidly; and three, that they support sound 
national policy.
    So consistent with that, we are obviously looking at a 
major infusion of money, for instance, into transportation by 
the States. We are looking at other more innovative sort of new 
economy ideas, like investments in health information 
technology (IT) and the smart grid.
    Probably because I am on the Armed Services Committee, it 
struck me that another possibility would be to accelerate the 
funding of defense programs that we know we are going to have 
to buy in the next 3 to 5 years and to do them this year or 
next year. I am not talking about using this as an excuse to 
sort of find money for controversial programs. I am thinking of 
programs that everybody agrees would be a high priority for 
funding and are just going to be spread out over 3 years, and I 
am thinking that this would create jobs quickly. I think the 
question is, can you find them? I am sure you can. They are 
ready to be funded rapidly. And they do support sound national 
policy, which is our national defense.
    I wonder if you have a reaction to that thought.
    Mr. Nabors. Well, we have spent some amount of time looking 
at what can be done through the Department of Defense. In 
particular, we have been looking at efforts that could both 
stimulate the economy and make the lives of our military 
families and soldiers more satisfactory.
    We will go back and take a look at whether or not there are 
other defense programs that we think could be executed quickly 
and could provide a stimulative bolt to the economy.
    Chairman Lieberman. Good for you. I appreciate that. I take 
it you are thinking, when you think about the families, perhaps 
of military construction of housing and the like.
    Mr. Nabors. We are thinking about military construction and 
housing, but we will expand that perspective to look at other 
issues, as well.
    Chairman Lieberman. That is one of the areas I was thinking 
about, military construction of facilities on bases that 
everybody agrees we are going to have to do in the next 3 to 5 
years, including housing, but also perhaps the purchase of some 
systems that we know we can actually gain a cost benefit if we 
fund up front with the defense manufacturers.
    I appreciate that answer, and I look forward to a response 
after you take a look at it.
    Mr. Nabors. Yes, sir.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Nabors, I am particularly interested in your experience 
with the census. As we discussed yesterday and as I indicated 
in my previous questioning, I am very concerned about the total 
failure of a major IT contract at the Census Bureau that was 
absolutely critical to improving the effectiveness and 
efficiency of the 2010 census. It is extraordinary to me in 
this time and age that we are going back to such a primitive 
system for trying to count people and carry out the 
constitutional responsibility of conducting a census.
    Do you think, given OMB's responsibilities to oversee IT 
contracts, that OMB should have been able to avert that 
disaster at the Census Bureau?
    Mr. Nabors. I think the way I would answer that question is 
that because of the responsibilities that OMB has been given by 
the Congress and by the President on many issues, OMB is 
ultimately responsible, and this is one of those issues where 
so many components of the decennial census, both the funding, 
contracting issues, information technology issues, sort of 
reside ultimately at OMB for appropriate oversight, but yes, I 
believe that some amount of responsibility should be borne by 
OMB in terms of whether or not an appropriate amount of 
attention was placed at a high enough level to catch these 
types of things.
    I think that one of the lessons that this brings out is 
that we need to spend more time doing the type of oversight 
that is necessary to ensure that the major dollars that we are 
investing in things like the decennial census are spent wisely.
    Senator Collins. Should OMB have a stronger Chief 
Information Officer or Chief Technology Officer who sets 
standards across the government?
    Mr. Nabors. I think, as Mr. Orszag laid out, the issue 
overall of IT and the importance of IT within the Federal 
Government at this point really is causing us to step back and 
take a look at whether another type of position, maybe a Chief 
Technology Officer or a Chief Information Officer, is something 
that is worthwhile. I think the decennial census provides a 
prime example of why we might need to consider that. I think 
over the next couple of weeks, I would expect to have further 
conversations with Mr. Orszag about that.
    Senator Collins. Along with technology concerns arises the 
greater concern about privacy of personal information that is 
held by Federal departments. In part due to the work that our 
Committee did when we passed the Intelligence Reform Act in 
2004, we created privacy officers in a number of agencies. Many 
agencies have designated privacy officers as a result. However, 
within OMB, there is no single official designated as the lead 
on privacy policy despite OMB's responsibility in e-Government, 
the Office of Information and Regulatory Affairs (OIRA), and 
procurement issues.
    I understand that when you were working at OMB, for a 
period of time, there was a Chief Counselor for Privacy, a 
position that has been vacant since 2001. Based on your 
experience, do you believe that this position was a valuable 
part of OMB that should be restored? Should Congress mandate 
that the position be created?
    Mr. Nabors. Well, when I was at OMB, we did have a Chief 
Counselor for Privacy, and I think he was very effective at the 
time. I think it was because of two reasons. One, he was 
recognized as one of the foremost experts in the country on 
privacy, so when he spoke, he carried a lot of weight. And I 
think, second, the Director, the Deputy Director, and the 
Deputy Director of Management all made it a point to ensure 
that whenever we were having broader information technology 
types of conversations or broader policy conversations, that 
our privacy person was in the room and participated, so that 
privacy was always part of the conversation that we were 
having.
    I think as we go forward, there are reasonable discussions 
that we can have about what the best way to achieve that type 
of goal is again. Perhaps it is having a person, but I think 
there is general agreement that we need to ensure that privacy 
is in the room and that people that we have talking about 
privacy are among the best, brightest, and most thoughtful 
people considering the issue.
    So I would very much like to work with you and your 
Committee to determine, in your opinion, how would you think 
the best way to structure that to ensure that privacy gets the 
appropriate level of attention during the OMB decisionmaking 
process.
    Senator Collins. I look forward to working with you on that 
issue.
    Finally, I want to talk to you a bit about performance of 
Federal programs evaluation and assessment. So much of OMB's 
functioning is focused, as you indicated, on the budget that at 
times we lose sight not only of the management side of OMB, but 
the importance of evaluating the effectiveness of Federal 
programs. The current Administration tried to tackle this issue 
by establishing what is known as the Program Assessment Rating 
Tool (PART) program, yet Congress did not find that to be as 
useful as we might have hoped.
    I know that when I looked at various programs, oftentimes I 
very much disagreed with the ratings that OMB assigned, and 
often giving a program the red light in a PART program 
evaluation really seemed to be a way to try to kill a program 
or reduce or eliminate its funding rather than truly being a 
fair assessment of its effectiveness. Yet there is no doubt in 
my mind that there are programs that are not effective and 
either should be eliminated or restructured so that they better 
achieve their goals.
    What are your thoughts on a possible successor to the PART 
program that would help both the Administration and the 
Congress more effectively evaluate the worth of Federal 
programs?
    Mr. Nabors. Well, I think that the first step is recreating 
the process that led to PART, and I say that for the following 
reason. When I was on the Appropriations Committee, I was 
routinely asked by OMB analysts and by agency officials what I 
thought about various PART scores, and I had to be honest with 
them and say, we on the Appropriations Committee don't really 
look at PART, in part because we don't think it is a useful 
tool. It is not crafted in a way that was useful to the types 
of decisions that appropriators were making.
    From talking to my colleagues on various authorization 
committees, I got the same reaction from them, that while the 
concept of PART, the concept of measuring performance, is 
something that should be universally beneficial across the 
Congress, the way it was done was not terribly helpful.
    So I would step back, and the first step in the process is 
actually identifying the appropriate measures by which a 
program's success or failure can be determined, and programs 
have very different levels associated with them. It can't be as 
simple as cost per student. There are more fundamental issues 
at play with some education programs than just something as 
simple as cost per student.
    I think that one of the things in evaluating PART that I 
would want to do is sit down and determine with congressional 
stakeholders and with outside stakeholders, what is the best 
way to measure the performance of particular programs?
    I think that the second thing that I would want to do is 
evaluate exactly what are we going to do with the information 
once we have collected it? As you have noted, oftentimes, a bad 
PART score is a justification to eliminate a program. I think 
oftentimes those proposals were made without a consideration 
for how integral such an activity might be to the Federal 
Government or to society at large. Just because something gets 
a bad PART score doesn't mean that we shouldn't do it. It means 
that we should do it better, and I think that this is one of 
the things that I would like to look at as part of a PART 
review process.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Collins was kind enough to say before she gave her 
opening statement that I had said a lot in my opening statement 
that she had intended to say. She has now asked all the 
remaining questions I had wanted to ask, so unless you have 
others----
    Senator Collins. I don't.
    Chairman Lieberman. Mr. Nabors, thanks very much for your 
willingness to serve. You and Peter Orszag are really a great 
combination. I think you will serve the country and the 
President and Congress really well because we have a lot of 
work to do together. I look forward, honestly, to getting to 
know you better, and I appreciate very much your testimony here 
today.
    Without objection, the record of this hearing will be kept 
open until 12 noon tomorrow for the submission of any written 
questions or statements for the record.
    We hope that the Senate will be able to confirm you as soon 
after the inauguration next Tuesday as possible.
    With that, I thank you, your family, and your staff. The 
hearing is adjourned.
    Mr. Nabors. Thank you very much.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Welcome, Mr. Nabors. Due to Committee procedures, we are holding a 
nomination hearing for you separate from Dr. Orszag's. Since I just 
delivered a lengthy opening statement on the issues facing OMB, I will 
not repeat it, but I would like to enter it into the record for this 
hearing since we will be covering much of the same ground.
    The discussion we have just had during Dr. Orszag's hearing was 
both fascinating and very sobering. For any administration, directing 
the Office of Management and Budget is one of the most important jobs--
albeit little known or understood outside of Washington. And being 
second in command will be no less demanding.
    You have an impressive background, and your previous experience at 
OMB will be very useful, if you are confirmed.
    Mr. Nabors has been Democratic Staff Director for the House 
Appropriations Committee for the past two years and was Minority Staff 
Director for two years before that. He joined the Committee in 2001.
    Before joining Congressional staff, he served in several positions 
at OMB--as a senior advisor to the Director from 1998-2000 and as 
Assistant Director for Administration and Executive Secretary from 
2000-2001. From 1996-1998, he was an OMB program manager.
    I am eager to hear your views and plans for the difficult times 
ahead. But first, please feel free to deliver an opening statement.

                               __________

                 PREPARED STATEMENT OF SENATOR COLLINS

    Seldom have nominees for director and deputy director of the Office 
of Management and Budget come before this Committee at a more critical 
time.
    The federal budget is under tremendous stress from the impacts of a 
deep recession and the costs of rescue and stimulus packages. Spiraling 
entitlement costs are driving long-term budgetary imbalances. And the 
next few years will also see the cresting waves of Baby Boom 
retirements, with enormous impacts on Social Security and Medicare 
expenditures, as well as on our federal workforce.
    Pointing to these trends and to the estimated $1.2 trillion deficit 
for the current fiscal year, the President-Elect has prudently warned 
that unless strong measures are taken, the outlook is for ``red ink as 
far as the eye can see.''
    Our nation's public debt has reached $6.3 trillion--about 45 
percent of gross domestic product. According to the Congressional 
Budget Office, federal spending will climb to an astonishing 25 percent 
of GDP this year--more than any time in American history outside of 
World War II. With a stimulus package worth another $800 billion or 
more, our nation's debt as a percentage of GDP could rise to 60 
percent, the highest level since World War II. That is, of course, an 
unacceptable and unsustainable scenario for the government, for the 
economy, and for the households and business owners who pay the 
government's bills.
    OMB will be the leading player as the incoming administration 
formulates policy to deal with a grim present and uncertain future. OMB 
will also be an indispensable link to Congress as the executive and 
legislative branches work toward consensus on a sustainable path 
forward.
    Dr. Orszag comes before the Committee with an impressive set of 
skills and experiences. As a former director of the non-partisan 
Congressional Budget Office, he is familiar with the legislative 
branch, as well as with the intricacies of budgets and policy analysis. 
His earlier service as an economic advisor, as a scholar, and as a 
consultant has given him other important perspectives that will prove 
valuable if confirmed as OMB director.
    I take special interest in several issues for which the OMB 
Director is a key player.
    The overriding concern, of course, is the federal budget. Dr. 
Orszag has already indicated that the economy and stimulus measures 
portend a near-term rise in the deficit. But as he knows--and as we 
have heard from former Comptroller General David Walker and other 
experts--recent years' outlays and the growth of unfunded entitlements 
are unsustainable.
    The recession will not last forever, so we desperately need a 
realistic plan to avoid having the federal budget become a mammoth drag 
on opportunities for job growth and higher personal income--and for 
people's ability to decide what to do with their own money. And let me 
add that the public expects far better oversight of the Troubled Asset 
Relief Program and of any future economic-recovery package.
    Another major OMB responsibility falls under the general heading of 
Executive Branch management. This Committee has documented a voluminous 
record of shocking waste of taxpayer dollars by the federal government 
in virtually every program and department.
    Many of these examples have arisen in the realm of contracting. 
This Committee has successfully passed legislation to improve the 
federal acquisition process, but additional reforms, including 
revitalization of the federal acquisition workforce, must be high on 
OMB's list of targets for critical improvements.
    Effectiveness and equity are other key management concerns. 
Homeland Security Grants, for example, are essential to ensure that 
every state can achieve a baseline level of readiness and response 
capability for natural or man-made disasters. OMB needs to examine 
budget plans carefully to ensure that they consistently support our 
nation's first responders and help achieve our national goal for all-
hazards emergency preparedness.
    Other special concerns--which Dr. Orszag recognizes in responses to 
pre-hearing questions--include transparency in government operations, 
metrics for agency performance, close attention to GAO's High-Risk 
List, and the need to tackle the escalating costs of health care.
    Today the Committee will also consider the nominee for one of the 
deputy directors at OMB, Robert Nabors.
    I look forward to learning more about Mr. Nabors' background, 
particularly his experience as a program examiner at OMB during the 
Clinton Administration. That past OMB service included oversight of a 
previous Census and of agency technology investments, both areas of 
considerable concern today.
    Our exploration with these nominees of the financial and management 
hurdles facing the federal government makes this a critically important 
hearing. Thank you, Mr. Chairman.

[GRAPHIC] [TIFF OMITTED] T9486.001

[GRAPHIC] [TIFF OMITTED] T9486.002

[GRAPHIC] [TIFF OMITTED] T9486.003

[GRAPHIC] [TIFF OMITTED] T9486.004

[GRAPHIC] [TIFF OMITTED] T9486.005

[GRAPHIC] [TIFF OMITTED] T9486.006

[GRAPHIC] [TIFF OMITTED] T9486.007

[GRAPHIC] [TIFF OMITTED] T9486.008

[GRAPHIC] [TIFF OMITTED] T9486.009

[GRAPHIC] [TIFF OMITTED] T9486.010

[GRAPHIC] [TIFF OMITTED] T9486.011

[GRAPHIC] [TIFF OMITTED] T9486.012

[GRAPHIC] [TIFF OMITTED] T9486.013

[GRAPHIC] [TIFF OMITTED] T9486.014

[GRAPHIC] [TIFF OMITTED] T9486.015

[GRAPHIC] [TIFF OMITTED] T9486.016

[GRAPHIC] [TIFF OMITTED] T9486.017

[GRAPHIC] [TIFF OMITTED] T9486.018

[GRAPHIC] [TIFF OMITTED] T9486.019

[GRAPHIC] [TIFF OMITTED] T9486.020

[GRAPHIC] [TIFF OMITTED] T9486.021

[GRAPHIC] [TIFF OMITTED] T9486.022

[GRAPHIC] [TIFF OMITTED] T9486.023

[GRAPHIC] [TIFF OMITTED] T9486.024

[GRAPHIC] [TIFF OMITTED] T9486.025

[GRAPHIC] [TIFF OMITTED] T9486.026

[GRAPHIC] [TIFF OMITTED] T9486.027

[GRAPHIC] [TIFF OMITTED] T9486.028

[GRAPHIC] [TIFF OMITTED] T9486.029

[GRAPHIC] [TIFF OMITTED] T9486.030

[GRAPHIC] [TIFF OMITTED] T9486.031

[GRAPHIC] [TIFF OMITTED] T9486.032

[GRAPHIC] [TIFF OMITTED] T9486.033

[GRAPHIC] [TIFF OMITTED] T9486.034

[GRAPHIC] [TIFF OMITTED] T9486.035

[GRAPHIC] [TIFF OMITTED] T9486.036

[GRAPHIC] [TIFF OMITTED] T9486.037

[GRAPHIC] [TIFF OMITTED] T9486.038

[GRAPHIC] [TIFF OMITTED] T9486.039

[GRAPHIC] [TIFF OMITTED] T9486.040

[GRAPHIC] [TIFF OMITTED] T9486.041

                                 <all>

</pre></body></html>
